WAIVER

SUPREME COURT OF THE UNITED STATES

No. (No. 20-1334

Bradley Boardman, et al Jay R. Inslee, et al
(Petitioner) Vv. (Respondent)

1 DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.

Please check the appropriate box:
oO Tam filing this waiver on behalf of all respondents.
© I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):

Campaign to Prevent Fraud and Protect Seniors

Please check the appropriate box:
© lama member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
oO lam not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk’s Office, 1 First Street, NE, Washington, D.C. 20543).

Signature: way

Date: 4/23/21

(Type or print) Name |Gregory J. Wong

© wr. © Ms. O Mrs. O Miss
Firm Pacifica Law Group
Address 1191 2nd Avenue, Suite 2000
City & State |Seattle, WA Zip 98101-3403
Phone 206.245.1700 Email Greg. Wong@pacificalawgroup.com

A copy of this form must be sent to petitioner’s counsel or to petitioner if pro se. Please indicate below the
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is required.

Paul Clement, Erin Murphy, Andrew Lawrence, Caleb Vandenbose, Susan Stahlfeld, Peter Gonick,
ce: |Noah Purcell
